IN THE SUPREME COURT OF THE UNITED STATES

No. 20-1258
ONO PHARMACEUTICAL CO., LTD.,
TASUKU HONJO, E.R. SQUIBB & SONS, L.L.C.,
AND BRISTOL-MYERS SQUIBB COMPANY,
Petitioners,
v.
DANA-FARBER CANCER INSTITUTE, INC.,
Respondent.

CERTIFICATE OF SERVICE

I, Michael Jacobs, hereby declare under penalty of perjury pursuant to
28 U.S.C. ยง 1746 and under the laws of the United States that the following is
true and correct:
Pursuant to Rule 29.5 of the Rules of this Court, all parties required to be
served have been served. On April 20, 2021, I caused 3 copies of the Brief in
Opposition to be served by first-class mail, postage prepaid, on the following:
Seth P. Waxman
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Avenue, N.W.
Washington, D.C. 20006
(202) 663-6000
Counsel of Record for Petitioners

Dated: April 20, 2021

Michael Jac
HBP Printing

